BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF COMPLIANCE
No. 21-51
CENTRAL PAYMENT Co., LLC,

Petitioner,
V.

CUSTOM HAIR DESIGNS BY SANDY, LLC, ON BEHALF OF
THEMSELVES AND ALL OTHERS SIMILARLY SITUATED;
SKIP'S PRECISION WELDING, LLC, ON BEHALF OF
THEMSELVES AND ALL OTHERS SIMILARLY SITUATED,

Respondents.
As required by Supreme Court Rule 33. l(h), I certify
that the Reply in Support of the Petition contains 2,912
words, excluding the parts of the Petition that are
exempted by Supreme Court Rule 33.l(d).
I declare under penalty of perjury that the foregoing
is true and correct.
Executed on October 4, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

I

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
' 1300 I Street, NW, Suite 400E
Washington , DC 20005

Sworn to and subscribed before me by said Affiant
on the date designated below.

Notary Public

'

[seal]

JOHN D. GALLAGHER
Notary Public, StattdOhJo
My Commission Explr~s
r ebruarv 14, 2023

